PETITIONER’S APPENDIX

United States v. Ray, 811 Fed.Appx. 414 (2020)

KeyCite Red Flag - Severe Negative Treatment
Rehearing en Banc Granted in Part, Opinion Vacated in Part by United States
v. Ray, 9th Cir., September 4, 2020

811 Fed.Appx. 414
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007.
See also U.S.Ct. of App. 9th Cir. Rule 36-3.
United States Court of Appeals, Ninth Circuit.

UNITED STATES of
America, Plaintiff-Appellee,
v.
Daniel RAY, aka Popeye, aka
Daniel T. Ray, aka Daniel Thomas
Ray, Defendant-Appellant.
United States of America,
Plaintiff-Appellee,
v.
Patrick John Bacon, Defendant-Appellant.

statements made prior to, and after, his self-inculpatory
statements; and
[3] district court did not abuse its discretion in applying twolevel “more than minimal planning” increase in sentencing
defendants.
Affirmed in part, vacated in part, and remanded.
Additional opinion, 956 F.3d 1154.

West Headnotes (3)
[1]

District court properly precluded defendant's
duress defense in assault prosecution, absent
evidence that defendant had no reasonable
opportunity to escape.

[2]

Holdings: The Court of Appeals held that:
[1] district court properly precluded defendant's duress
defense;

Criminal Law

Rule of Completeness

District court did not abuse its discretion in
assault prosecution when it rejected defendant's
request pursuant to rule of completeness
to include his non-self-inculpatory statements
made prior to, and after, his self-inculpatory
statements, where there was no misleading
impression that completed paragraph would
correct.

No. 18-50115, No. 18-50120
|
Argued and Submitted January
6, 2020 Pasadena, California
|
FILED April 28, 2020
Synopsis
Background: Defendants were convicted in the United States
District Court for the Central District of California, Percy
Anderson, J., of assault with deadly weapon with intent to do
bodily harm, and aiding and abetting assault causing serious
bodily injury, and they appealed.

Criminal Law
Compulsion or necessity;
justification in general

[3]

Sentencing and Punishment

Planning

District court did not abuse its discretion
in applying two-level “more than minimal
planning” increase in sentencing defendants for
assault with deadly weapon with intent to do
bodily harm and aiding and abetting assault
causing serious bodily injury, in light of evidence
that incident was coordinated assault. U.S.S.G. §
2A2.2(b)(1).

[2] district court did not abuse its discretion in rejecting
defendant's request to include his non-self-inculpatory

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Pet. App. 1

1

United States v. Ray, 811 Fed.Appx. 414 (2020)

Attorneys and Law Firms
*415 Shawn T. Andrews, Esquire, Assistant U.S. Attorney,
Bram Alden, L. Ashley Aull, Assistant U.S. Attorney, Sue
Bai, Assistant U.S. Attorney, DOJ - Office of the U.S.
Attorney, Los Angeles, CA, for Plaintiff - Appellee
Ethan Atticus Balogh, Coleman & Balogh LLP, San
Francisco, CA, for Defendant - Appellant
Appeal from the United States District Court for the Central
District of California, Percy Anderson, United States District
Judge, Presiding. D.C. No. 5:17-cr-00159-PA-2, D.C. No.
5:17-cr-00159-PA-1
Before: WATFORD and BENNETT, Circuit Judges, and
RAKOFF,* District Judge.

MEMORANDUM*
Patrick Bacon and Daniel Ray were convicted of assault
with a deadly weapon with intent to do bodily harm, under
18 U.S.C. § 113(a)(3), and assault causing serious bodily
injury, under id. § 113(a)(6), via id. § 2(a) (aiding and
abetting). Defendants were sentenced to 120 months and 100
months in prison, respectively. They appeal the convictions
and sentences. We have jurisdiction under 28 U.S.C. § 1291
and 18 U.S.C. § 3742.1
[1] 1. Reviewing de novo, the district court properly
precluded Bacon's duress defense. See United States v.
Ibarra-Pino, 657 F.3d 1000, 1004 (9th Cir. 2011) (defendant
must make a “prima facie showing of duress in a pretrial offer
of proof”). Bacon has not shown that he “had no reasonable
opportunity to escape.” United States v. Wood, 566 F.2d 1108,
1109 (9th Cir. 1977) (per curiam); see also United States v.
Houston, 648 F.3d 806, 817 (9th Cir. 2011).
[2] 2. Reviewing “the district court's decision on the Rule
of Completeness for an abuse of discretion,” United States
v. Vallejos, 742 F.3d 902, 905 (9th Cir. 2014), we find the
district court did not abuse its discretion. First, there is
no “misleading impression,” id. (citation omitted), that the
*416 completed paragraph after Bacon's statement that he
was “raised to be an honest person,” would correct. Nor
can the defendant include additional portions simply because
they would give context to the jury. See id. (district court
properly rejected redacted portion of defendant's confession

that he sought to include to “show the jury the ‘flavor
of the interview,’ to ‘humanize’ [defendant], to prove his
‘character,’ and to convey to the jury the voluntariness of
his statement”). Second, defendant cannot “elicit[ ] his own
exculpatory statements, which were made within a broader,
inculpatory narrative.” United States v. Ortega, 203 F.3d 675,
681-82 (9th Cir. 2000). The district court properly rejected
Bacon's request to include his statements made prior to,
and after, his statement that he said “something like ‘go in
peace.’ ” See id. at 682 (“[N]on-self-inculpatory statements
are inadmissible even if they were made contemporaneously
with other self-inculpatory statements.”).
3. Turning to Ray and applying the “two-step inquiry for
considering a challenge to a conviction based on sufficiency
of the evidence,” United States v. Nevils, 598 F.3d 1158,
1164 (9th Cir. 2010) (en banc), we find there was sufficient
evidence to support his conviction for assault. Viewing the
video evidence and eyewitness testimony in the light most
favorable to the prosecution, at least one rational juror could
have found that Ray aided and abetted the assault.
4. Ray also argues there is insufficient evidence that the
government proved the offense took place within the special
maritime and territorial jurisdiction of the United States.
Even if Ray preserved this claim, there is sufficient evidence,
such as uncontroverted testimony by the prison guards, that
the government proved this element. See United States v.
Read, 918 F.3d 712, 718 (9th Cir. 2019) (“[U]ncontradicted
testimony from inmates or employees at a federal prison can
establish the jurisdictional element of 18 U.S.C. § 113.”).
5. Ray claims the district court improperly excluded a
note allegedly written by Bacon. Reviewing admissibility
of evidence under Federal Rule of Evidence 804(b)(3) for
abuse of discretion, see United States v. Rhodes, 713 F.2d
463, 473 (9th Cir. 1983), we find the district court did
not abuse its discretion. Among other things, the note was
hearsay, irrelevant, and not a statement against interest.
See United States v. Oropeza, 564 F.2d 316, 325 (9th Cir.
1977). The district court also did not abuse its discretion
in preventing Ray from cross-examining Bacon about the
properly excluded note. See United States v. Shabani, 48 F.3d
401, 403 (9th Cir. 1995) (no abuse of discretion “as long as
the jury receives sufficient information to appraise the biases
and motivations of the witness”) (citation omitted). Because
this “evidentiary ruling was well within” the district court's
discretion, there is no constitutional error. United States v.
Waters, 627 F.3d 345, 353 (9th Cir. 2010).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Pet. App. 2

2

United States v. Ray, 811 Fed.Appx. 414 (2020)

6. For sentencing, “we review the district court's identification
of the correct legal standard de novo and the district court's
factual findings for clear error.” United States v. Gasca-Ruiz,
852 F.3d 1167, 1170 (9th Cir. 2017) (en banc). “[A]pplication
of the Sentencing Guidelines to the facts of a given case
should be reviewed for abuse of discretion.” Id. On de novo
review, the district court correctly identified the proper legal
standard for a mitigated role adjustment under U.S.S.G.
§ 3B1.2(b), see United States v. Diaz, 884 F.3d 911, 916
(9th Cir. 2018) (proper standard is to compare “defendant's
conduct ... against that of other participants in his or her
own criminal scheme”); see Gasca-Ruiz, 852 F.3d at 1171,
1174-75 (if the district court identifies the right guideline
*417 and commentary “we will not assume that the court
applied the wrong legal standard” absent something more).
The record does not show that the district court improperly
compared Ray to a hypothetical average offender rather
than an average participant in the scheme. The district court
compared Ray to the average defendant only in the context
of the facts of the case. The district court's finding that Ray
was “indispensable” to the attack was also not legal error. The
district court relied on multiple factual findings to support its
conclusion that Ray was not a minor participant. See Diaz,
884 F.3d at 915 (defendant's essential or indispensable role
is not outcome determinative). Lastly, the district court did
not abuse its discretion in applying the Note 3(C) factors to
Ray. Ray must prove he was “substantially less culpable than
the average participant in the charged criminal activity.” Id. at
914 (internal quotations omitted). Based on the record he has
not carried that burden. Thus, the district court did not abuse
its discretion.

[3] 7. The district court did not abuse its discretion, see
Gasca-Ruiz, 852 F.3d at 1170, in applying a two-level
“more than minimal planning” increase under U.S.S.G. §
2A2.2(b)(1). The district court properly found that this
was a coordinated assault, and the guidelines focus on the
characteristics of the offense, not the individual. See §
2A2.2(b)(1) (“[I]f the assault involved more than minimal
planning....”) (emphasis added).
8. The parties agree that the district court plainly erred in
calculating Ray's criminal history score. See United States
v. Depue, 912 F.3d 1227, 1232 (9th Cir. 2019) (en banc) (a
finding of plain error requires error that is plain and affects
substantial rights). The district court improperly counted
three of Ray's juvenile offense convictions. See U.S.S.G. §
4A1.2(d)(2); see also United States v. Johnson, 205 F.3d
1197, 1199-1200 (9th Cir. 2000). The district court's plain
error affected Ray's substantial rights because it increased the
suggested sentencing guidelines range.2 See Molina-Martinez
v. United States, ––– U.S. ––––, 136 S. Ct. 1338, 1345-46,
194 L.Ed.2d 444 (2016). Thus, we vacate Ray's sentence.
We decline the government's request for a limited remand
and remand to the district court for resentencing on an open
record. See United States v. Matthews, 278 F.3d 880, 885-86
(9th Cir. 2002) (en banc).
AFFIRMED in PART, VACATED and REMANDED in
PART.
All Citations
811 Fed.Appx. 414

Footnotes

*
1
2

This disposition is not appropriate for publication and is not precedent except as provided by Ninth Circuit Rule 36-3.
In a concurrently filed opinion, we address Bacon's argument that the district court abused its discretion by precluding
Dr. Karim, Bacon's expert witness, from testifying in support of Bacon's insanity defense.
Ray's criminal history score resulted in his criminal history category increasing from IV to V.

End of Document

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Pet. App. 3

3

Case: 18-50115, 08/14/2020, ID: 11789000, DktEntry: 63, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
AUG 14 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES
Plaintiff-Appellee,
v.
DANIEL RAY, AKA Popeye, AKA Daniel
T. Ray, AKA Daniel Thomas Ray,

No.

18-50115

D.C. No. 17-CR-00159-PA-2
Central District of California,
Los Angeles
ORDER

Defendant-Appellant.
Before: WATFORD and BENNETT, Circuit Judges, and RAKOFF*, District
Judge.
Appellant, Daniel Ray, filed a petition for panel rehearing and for rehearing
en banc. [Dkt. 60]. The panel has unanimously voted to deny the petition for
rehearing. Judges Watford and Bennett have voted to deny the petition for
rehearing en banc, and Judge Rakoff so recommends. The full court has been
advised of the petition for rehearing en banc, and no judge has requested a vote on
whether to rehear the matter en banc. Fed. R. App. P. 35.
The petition for panel rehearing and rehearing en banc is DENIED.

*

The Honorable Jed S. Rakoff, United States District Judge for the
Southern District of New York, sitting by designation.

Pet. App. 4

